vu & .    ,I / v a    LU ;    .8   "   ',X   v "o
                                               uu   &..'*.       tf   V"x
                                                                        IjoJ                      ,*- , ,   i   4tiJ   wi U U   1

     OEF 135 S.a
   (0B93)
   United States Government
                                                             -                                 Department of Energy
   memorandum
              DATE:          February 27, 2007
         REPLY TO                                                              Audit Repor Number: OAS-L-07-08
          ATTN OF:           IG-32 (A06ID015)
         SUBJECT:         Audit of the "Design of the Engineered
                                                                  Barrier System at the Yucca Mountain
                                                                                                       Site"
               TO:        Principal Deputy Director, Office
                                                            of Civilian Radioactive Waste Management
                         INTRODUCTION AND OBJECTrVE

                        In accordance with the Nuclear Waste Policy
                                                                       Act of 1982, the Department of Energy's
                        (Department) Office of Civilian Radioactive Waste Management
                                                                                            (OCRWM)
                        responsible for designing, licensing, constructing, and operating a repository, is
                                                                                                        known as
                        Yucca Mountain, for the permanent disposal of spent nuclear
                                                                                       fuel and high-level
                       radioactive waste. Yucca Mountain will be designed with a series of natural and -
                       engineered barriers intended to contain the waste in order to minimize the risk that the
                       waste poses to human health and the enviroment. OCRWM is pursuing an engineered
                       barrier design that includes a drip shield and waste package with design features that
                       were evaluated in the 2003 value engineering studies.

                        To ensure that it receives the best value, the Department
                                                                                   is required by DOE M 413.3-1
                       to employ value engineering as early as possible in the project.
                                                                                           Value engineering is a
                       systematic effort analyzing alternative approaches for accomplishing a project's essential
                       functions at the lowest life cycle cost consistent with required technical performance,
                       quality, reliability, and safety. Based on the value engineeing studies conducted
                                                                                                             by its
                       contractor, Bechtel SAIC (Bechtel), the Department estimated that it
                                                                                                will cost
                      approximately $15.3 billion for the fabrication of the engineered barrier system.
                      Accordingly, we initiated our audit to determine whether the Department fully evaluated
                      alternatives identified in value engineering studies for the Yucca Mountain
                                                                                                      Project's
                      engineered barrier system.

                      CONCLUSIONS AND OBSERVATIONS

                      The Office of Civilian Radioactive Waste Management
                                                                                 (OCRWM) did not always fully
                     evaluate alternatives for theYucca Mountain
                                                                      engineered barrier system that were
                     identified in value engineering studies
                                                              conducted in Fiscal Year 2003. Specifically,
                     OCRWM did not pursue a number of
                                                             alternatives that the value engineering
                     high technically and as costing                                                  studies rated
                     system design.                  less than alternatives selected for
                                                                                          the engineered barrier
u ,/
  , i/      .    L. I . ,   L   A A
                                -'*   O U V ;J   .L   0 0   V I       il                   '-W*
                                                                                              '   l                 I JU U Z




                   For example, Bechtel did not fully evaluate alternatives
                                                                               that a value engineering study
                  rated as having higher technical performance and costing
                                                                                 less than the selected design
                  that employs a titanium drip shield. The purpose
                                                                       of the drip shield is to protect the waste
                 packages from water seepage and falling rock
                                                                   once the repository is closed. In its 2003
                 value study, Bechtel evaluated the drip shield
                                                                   baseline design, which consisted of a
                 titanium shield that fits over the waste package,
                                                                     against three other alternatives: backfill,
                 a drift liner, and a shield that would be integrated
                                                                      with the waste package. Notably, one
                 alternative, the integrated shield, received a technical
                                                                           score that was higherthan the
                baseline titanium drip shield alternative and cost
                study OCRWM retained the drip shield design less. However, at the conclusion of the
                                                                   for the licensing application without
                pursuing further investigations of other promising alternatives. Additionally, Bechtel did
                not adequately document the rationale for notpursuing further investigation of the
                alternative receiving high technical ratings that cost'less than
                                                                                    the baseline design.
              In explaining the reason for not pursing other promising
              stated that there is sufficient time to revisit the drip shieldalternatives,  OCRWM officials
                                                                               since it will not be installed for
             more than 100 years. However, one alternative, the integrated shield, would be installed
             when waste is emplaced in the repository, rather than in 100 years. Accordingly, delays
             in fully investigating the integrte ed shield alternative could eliminate it fr ue once
            waste begins tc bc ,emplaced in the repository. Additionally,
            the alternatives may not have been                                    according
                                                    fully evaluated due the Department's to management
                                                                                              efforts to meet
            the December 2004 license application schedule.

           OCRWM also officials pointed out that they are researching
                                                                            alternatives to the drip shield
           that were not covered in the value engineering
                                                             studies.
           conducting research on alternative material coatings thatSpecifically, OCRWM is
                                                                       may significantly reduce the
           cost of the drip shield baseline design. However, we
                                                                    remain concerned that OCRWM
          Shad not made the best use of the value egineering studies
                                                                         since it did not fully
          investigate promising alternatives
                                               to the drip shield or document the
          pursing them.                                                             rationale for not

           We also noted that the FY 2003 value engineering
                                                                 studies identified other promising
          alternatives to the baseline design for the waste
                                                             package   that were not fully investigated
          before selecting a more conservative design
                                                         for the repository license application. While
          new design considerations may preclude the
          OCRWM had not made the best                     use of these alternatives, we concluded that
                                            use of its value engineering studies
          conducted.                                                               at the time they were

           At the time of the 2003 value engineering
                                                       studies, OCRWM's procedures did not provide
           for adequate oversight to ersure that alternatives
                                                               were evaluated once the value
          engineering studies were completed. For example,
                                                                 OCRWM did not perform a detailed
          review of the value engineering study reports completed
          that the contractor adequately supported the                 by Bechtel, and did not ensure
         the studies. To its credit, OCRWM has           rationale for the alternatives
                                                    taken steps to increase monitoringselected
                                                                                         of the
                                                                                                 from
         engineering process. Specifically, in January 2004, OCRWM assigned a Certified Value   value
         Specialist to monitor all value engineering efforts at Yucca Mountain including
         completing management and technical quality reviews of reports.



                                                                  2
            Because of the significant cost of the repository,
                                                               we suggest that OCRWM continue to
            take steps to improve
            coating against       its vaue engineering
                            other alternatives.         process,
                                                Otherwise,       including evaluating the new material
                                                            the Department  is at risk of not selecting
           the repository design that represents the best value for meeting performance
           requirements.

           SCOPE AND METHODOLOGY

          The audit was performed
          Repository Development from     February 2006 to December
                                    and Bechtel SAIC Company, LLC2006       at the Office of
                                                                       in Las Vegas, Nevada. The
          audit was limited to the waste package and drip shield design from 2002 to 2006. To
          accomplish the audit objective, we:

              * Obtained and reviewed design documentation for the
                                                                   waste package and the drip
                shield;
             SInterviewed key personnel at the Office
                                                      of Repository Development and Bechtel
                SAIC Company, LLC.;

             * Researched Federal and Departmental
                                                   regulatio;is;
             * Reviewed findings from prior audit
                                                  reports; and,
             * Assessed internal controls and performance measures
                                                                   established under the
               Government Performance and Results Act
                                                         of 1993.
        The audit was performed in accordance with
        standards for performance audits and           generally accepted Government
                                               included tests of internal controls and auditing
                                                                                       compliance
        with laws and regulations to the extent necessary to satisfy the audit objective.
        Specifically, we tested controls with respect to the
                                                             Department's evaluation
        alternatives for the Yucca Mountain   engineered barrier system. Because ourof
       limited, it would not necessarily have disclosed all internal control deficienciesreview was
                                                                                             Because
       no formal recommendations are being made in this letter report, a formal response is not
       required. The Office of Chief Engineer waived an exit conference. We appreciate the
       cooperation of your staff as well as the contractor staff.




                                             redrick G. Pieper, Director
                                            Energy, Science and Environmental
                                             Audits Division
                                            Office of Inspector General
cc:   Chief of Staff
      Director, Office of Civilian Radioactive
      Team Leader, Audit Liaison Team,         Waste Management
                                          CF-1.2
      Audit Liaison, Office of Civilian Radioactive
                                                    Waste Management
      Audit Liaison, Yucca Mountain Site Office


                                               3
